i
TABLE OF CONTENTS
Opinion of the Washington Court of Appeals,
filed Dec. 9, 2019 ............................................. A-1
Order of the Superior Court for Kitsap County,
denying petitioners’ motion to authorize
supplementation of the record,
dated Oct. 12, 2017 ......................................... B-1
Order of the Washington Supreme Court,
denying petition for review,
filed July 8, 2020 ............................................. C-1
Petitioners’ Amended Petition for Judicial Review, in
relevant part, filed in Superior Court for Kitsap
County, dated Sept. 22, 2017.......................... D-1

Appendix A-1
FILED
12/9/2019
Court of Appeals
Division I
State of Washington
IN THE COURT OF APPEALS OF THE STATE
OF WASHINGTON
PRESERVE RESPONSIBLE
SHORELINE
MANAGEMENT, Alice
Tawresey, Robert Day,
Bainbridge Shoreline
Homeowners, Dick Haugan,
Linda Young, Don Flora,
John Rosling, Bainbridge
Defense Fund, Gary Tripp,
and Point Monroe Lagoon
Home Owners Association,
Inc.,
Appellants,
v.
CITY OF BAINBRIDGE
ISLAND, Washington State
Department of Ecology,
Environmental Land Use
Hearing Office and Growth
Management Hearings Board
Central Puget Sound Region,
Respondents.

No. 80092-2-I
DIVISION ONE
UNPUBLISHED
OPINION

FILED:
December 9, 2019

MANN, A.C.J. - Preserve Responsible Shoreline
Management (PRSM) seeks review of the superior

Appendix A-2
court’s decision denying its motion to supplement the
administrative record in its appeal of the City of
Bainbridge Island Shoreline Master Program. PRSM
unsuccessfully appealed the Shoreline Master
Program to the Growth Management Hearings Board
(Board). PRSM then appealed the Board’s final
decision to the superior court under the
Administrative Procedure Act (APA), Ch. 34.05 RCW,
adding facial constitutional challenges. PRSM then
unsuccessfully moved to amend the administrative
record with new testimony purportedly supporting its
constitutional claims. We granted discretionary
review and now affirm.
I.
In July 2014, the City of Bainbridge (City)
adopted a new Shoreline Master Program (SMP) with
approval of the State of Washington Department of
Ecology (DOE). On October 7, 2014, PRSM filed a
petition for review with the Board asserting that the
SMP violated provisions of the Shoreline
Management Act (SMA), ch. 90.58 RCW, and the
Shoreline Master Program Guidelines, WAC 173-26171. The petition asserted that the SMP also raised
constitutional issues but because the Board did not
have jurisdiction “those issues are not being raised in
this petition.” Consistent with this statement, the
petition for review did not include PRSM’s
constitutional theories. On April 6, 2015, the Board
issued its Final Decision and Order concluding that
the petitioners failed to demonstrate that the actions
of the City and the DOE violated the SMP or
guidelines, and dismissing the appeal.
On May 6, 2015, PRSM filed a petition for judicial
review of the Board’s final decision in the Kitsap

Appendix A-3
County Superior Court. The petition raised a number
of constitutional issues under the APA and Uniform
Declaratory Judgment Act (UDJA), ch. 7.24 RCW.
The superior court dismissed the UDJA causes of
action, concluding that RCW 34.05.510 dictates that
judicial review under the APA provided the only
avenue for relief and that RCW 7.24.146 instructs
that the UDJA does not apply to state agency actions
reviewable under the APA.
PRSM then moved for authorization to
supplement the administrative record under RCW
34.05.562(1)(b). To support its motion, PRSM
contended
that there are many provisions in the SMP’s
400 page plus new regulatory which are
unduly oppressive, such as the provision
that regulates every “human activity” in the
shoreline (up to 200 feet inland from the
ordinary high water mark). The SMP
requires permits for any change to
vegetation in one’s yard. The SMP claims it
is not retroactive (Section 1.3.5.2), but the
fact that it regulates every human activity
makes the non-retroactivity provision
practically meaningless. The SMP includes
contradictory language about what is
permitted in terms of human activities, but
then provides that the most restrictive
regulation applies to wipe out provisions
which appear to allow people to make
reasonable use of their homes and yards.
PRSM sought to supplement the record with
testimony from Kim Schaumburg, Barbara Phillips,
and Barbara Robbins on matters relevant to its

Appendix A-4
takings theories. Schaumburg, an environmental
consultant would testify that “the science upon which
the City relied relates to the impact of certain land
uses on freshwater bodies” and “that such science
should not be applied to salt water bodies.” Further,
Schaumburg would testify that “the science which the
City uses to justify restrictions on land use, such as
increased buffers from the water, arises from studies
involving fresh water bodies and does not apply to salt
water bodies.” Phillips, “a person with a scientific
background,” would testify to “the flaw in using
conceptual scientific data to support conclusions that
form the basis for the extensive increase in regulation
in the SMP.” And Robbins, a landowner on Bainbridge
Island, would provide testimony about the loss of
value to her property. Specifically, Robbins
whose property she has owned for decades
has plummeted in value because of the SM
P’s restriction on vegetation removal. She
has paid high taxes for decades on the
reasonable expectation that the property
would have views of the water and the
Olympics only to find that the SMP has
significantly reduced the value of her
property. At the heart of the protection from
uncompensated taking and damaging of
property in Article I, Section 16 of the
Washington Constitution is the harm to the
property owner. Ms. Robbins’ testimony will
demonstrate the reality of that harm.
PRSM also sought permission to offer testimony
from Peter Brochvogel and Robbyn Meyers, to support
its void for vagueness theory. Specifically, PRSM
wanted to show that the SMP is “not decipherable by

Appendix A-5
the average citizen.” Brochvogel, a longtime architect
on Bainbridge Island, and Meyer, a land-use
consultant, would “explain why citizen’s [sic] cannot
determine the regulatory requirements of the SMP
simply [by] reading its wording. Because of the sheer
volume and complexity of the SMP, expert testimony
will be of substantial assistance to the Court.”
Finally, to support its First Amendment theory,
PRSM offered testimony from Linda Young, “a citizen
and petitioner herein, to testify as to how the SMP’s
provision giving City administrative staff control over
vegetation and landscaping decisions interferes with
freedom of expression.”
The City and DOE opposed PRSM’s motion to
supplement, arguing that PRSM failed to show that
any of the proffered supplementary evidence met the
conditions for supplementation under RCW
34.05.562, the record contained ample evidence of the
science
used
in
SMP
development,
and
supplementation was not needed to resolve the
disputed facial challenges.
After oral argument, the superior court denied
PRSM’s request to supplement the record. The court
found that the supplementary evidence was not
needed to decide the disputed issues in this case.
This court granted
discretionary review.

PRSM’s

motion

for

II.
This appeal is limited to PRSM’s appeal of the
superior court’s decision denying PRSM’s motion to

Appendix A-6
supplement the administrative record with additional
testimony. 1
‘The admission or refusal of evidence is largely
within the discretion of the trial court and will not be
reversed on appeal absent a showing of a manifest
abuse of discretion.” Lund v. State Dep’t of Ecology, 93
Wn. App. 329, 334, 969 P.3d 1072 (1998) (affirming
the superior court’s discretionary decision denying a
request to supplement the record to present evidence
and argument on constitutional issues not raised
before the administrative tribunal). A trial court’s
decision is manifestly unreasonable if “the court,
despite applying the correct legal standard to the
supported facts, adopts a view ‘that no reasonable
person would take.’” Mayer v. Sto Indus., Inc., 156
Wn.2d 677, 684, 132 P.3d 115 (2006).
A.
Decisions of the growth management hearings
boards must be appealed to the superior court under
the APA. RCW 36.70A.300(5); Olympic Stewardship
Foundation (OSF) v. State Envtl. & Land Use Hrgs.
Office, 199 Wn. App. 668, 685, 399 P.3d 562 (2017),
rev. denied, 189 Wn.2d 1040 (2018). In contrast to
non-administrative proceedings where the trial court
is the finder of fact, in administrative proceedings,
“the facts are established at the administrative
hearing and the superior court acts as an appellate
court.” U.S. West Commc’ns, Inc. v. Wash. Utils. &
This is an interlocutory appeal of the trial court’s decision
denying PRSM’s motion to supplement the record. Consequently,
our decision does not address the merits of PRSM’s constitutional
claims. This opinion solely addresses whether the superior court
abused its discretion by denying PRSM’s motion to supplement
the administrative record.

1

Appendix A-7
Transp. Comm’n, 134 Wn.2d 48, 72, 949 P.2d 1321
(1997); Waste Mgmt. of Seattle, Inc. v. Utils. &
Transp. Comm’n, 123 Wn.2d 621,633,869 P.2d 1034
(1994).
A court reviewing an agency order under the APA
may overturn the action only if the challenger
demonstrates that the order is invalid under at least
one of the criteria set forth in RCW 34.05.570,
including whether “the order, or the statute or rule on
which the order is based, is in violation of
constitutional provisions on its face or as applied.”
RCW 34.05.570(3)(a). Where the administrative board
below does not have jurisdiction to hear constitutional
claims, those claims may be raised for the first time
before the superior court as an issue in the judicial
review. Bayfield Res. Co. v. W. Wash. Growth Mgmt.
Hrgs. Bd., 158 Wn. App. 866, 881 n.8, 244 P.3d 412
(2010).
Regardless of the issues raised in the APA appeal,
“APA judicial review is limited to the record before the
agency.” Samson v. City of Bainbridge Island, 149 Wn.
App. 33, 64, 202 P.3d 334 (2009) (citing RCW
34.05.566(1)). Accord, RCW 34.05.558 (“Judicial
review of disputed issues of fact ... must be confined to
the agency record for judicial review as defined by this
chapter”); Kittitas County v. Eastern Wash. Growth
Mgmt. Hrgs. Bd., 172 Wn.2d 144, 155, 256 P.3d 1193
(2011); Lund v. State Dep’t of Ecology, 93 Wn. App.
329, 333-34, 969 P.3d 1072 (1998) (review of
constitutional challenges to shoreline regulation
under the APA is limited to the Board’s record and
decision). While the APA allows the superior court to
supplement the agency record, new evidence is
admissible only under “highly limited circumstances”

Appendix A-8
and must fit “squarely” within one of the statutory
exceptions set forth in RCW 34.05.562. Motley-Motley
v. Pollution Control Hrgs. Bd., 127 Wn. App. 62, 76,
110 P.3d 812 (2005); Herman v. Shoreline Hrgs. Bd.,
149 Wn. App. 444, 455-56, 204 P.3d 928 (2009);
Samson, 149 Wn. App. at 64-65.
B.
PRSM first contends that the trial court erred in
concluding that its constitutional claims were
appellate in nature and thus bound by the APA.
PRSM argues instead that the trial court should have
exercised its original jurisdiction and accepted
testimony and evidence outside of the APA’s
restriction to the record. We disagree.
PRSM cites little Washington precedence in
support of its theory that the APA’s strict limitation
on new evidence is not applicable when the superior
court is reviewing constitutional claims. PRSM quotes
James v. Kitsap County, 154 Wn.2d 574, 588-89, 115
P.3d 286 (2005), for the proposition the “APA imposes
only a ‘procedural requirement[]’ that PRSM litigate
all claims subject to the Growth Board’s authority to
that agency ‘before a superior court will exercise its
original jurisdiction’ over its constitutional claims.”
PRSM fails first, however, to recognize that James
was a Land Use Petition Act (LUPA) case-not an APA
case-and did not address supplementation of the
administrative record under the APA. Second, what
the James court held was “a LUPA action may invoke
the original appellate jurisdiction of the superior
court, but congruent with the explicit objectives of the
legislature in enacting LUPA, parties must
substantially comply with procedural requirements
before a superior court will exercise its original

Appendix A-9
jurisdiction.” James, 154 Wn.2d 588-89. Here, while
the superior court may have original appellate
jurisdiction to consider PRSM’s constitutional claims,
the procedural requirements of the APA limit
evidence to that introduced before the administrative
agency, or allowed by the superior court consistent
with the narrow exceptions in RCW 34.05.562.
Contrary to PRSM’s argument, the superior court
did not err in concluding that it was acting as an
appellate court in reviewing PRSM’s claims—
including its constitutional claims—under the APA
U.S. West, 134 Wn.2d at 72; Waste Management, 123
Wn.2d at 633; Lund, 93 Wn. App. at 333-34; OES, 199
Wn. App. at 705, 710-11.
C.
PRSM argues that supplementation of the
administrative record is appropriate under RCW
34.05.562(1)(b). We disagree.
Under the APA, the superior court has
discretionary authority to supplement the agency
record in three narrow circumstances, as defined in
RCW 34.05.562:
(1) The court may receive evidence in
addition to that contained in the agency
record for judicial review, only if it relates to
the validity of the agency action at the time
it was taken and is needed to decide
disputed issues regarding:
(a) Improper constitution as a decisionmaking body or grounds for disqualification
of those taking the agency action;

Appendix A-10
(b) Unlawfulness of procedure or of decisionmaking process; or
(c) Material fact in rule making, brief
adjudications, or other proceedings not
required to be determined on the agency
record.
PRSM argues that supplementation of the
administrative record is appropriate under RCW
34.05.562(1)(b). RCW 34.05.562(1)(b) provides the
superior court discretion to supplement the record,
only if the evidence relates to the “validity of the
agency action at the time it was taken” and is needed
to decide disputed issues regarding the “unlawfulness
of procedure or of decision-making process.” Thus,
RCW 34.05.562(1)(b) allows the superior court to
supplement evidence when a petitioner claims that
the agency violated procedure during its decisionmaking process.
For example, in Batchelder v. City of Seattle, 77
Wn. App. 154, 159, 890 P.2d 25 (1995), the court
analyzed whether the Shoreline Hearings Board erred
when it allowed “segmentation” of the permitting
process for a waterfront development project.
Improper segmentation is an unlawful procedure or
decision-making process under the SMA. Batchelder,
77 Wn. App. at 159. Specifically, “a single project may
not be divided into segments for purposes of avoiding
compliance with the SMA.” Batchelder, 77 Wn. App.
at 160 (citing Merkel v. Port of Brownsville, 8 Wn.
App. 844, 509 P.2d 390 (1973)). Where an agency
engages in some unlawful procedure, such as
segmenting a project’s permits, subsection (b) grants
discretionary authority to the superior court to

Appendix A-11
supplement the administrative record to decide those
disputed issues. RCW 34.05.562(1)(b).
Here, PRSM offered evidence to support disputed
issues of the constitutionality of the SMP. PRSM did
not claim, however, that the evidence is necessary to
decide whether the procedure used or the decisionmaking process of the Board violated due process, the
APA, or another statute or regulation governing the
Board’s procedure. Because PRSM failed to present an
argument of how the supplemental evidence was
necessary to show that the Board’s decision-making
process or procedure was unlawful, the superior court
did not abuse its discretion when it denied PRSM’s
request under RCW 34.05.562(1)(b).
D.
While PRSM does not specifically assert that the
additional evidence should be admitted under RCW
34.05.562(1)(c), PRSM’s argument asserts that the
superior court abused its discretion by refusing its
request to supplement the record because it needed to
develop the factual record to support its constitutional
claims.
RCW 34.05.562(1)(c) provides the superior court
with discretion to supplement the record with
“material facts in rule making, brief adjudications, or
other proceedings not required to be determined on
the agency record.” It is also within the superior
court’s discretion to find that the facts proffered are
not necessary to decide the disputed issues. The
superior court did not err when it concluded that it did
not need additional facts to decide PRSM’s facial
constitutional claims because its facial constitutional

Appendix A-12
challenges can be decided without reference to
additional facts. We address each of PRSM’s claims.
1.
PRSM contends that the superior court abused its
discretion by refusing to supplement the record with
evidence demonstrating that gardening is expressive
conduct and protected by the First Amendment.
“Facts are not essential for consideration of a
facial challenge to a statute or ordinance based on
First Amendment grounds.” City of Seattle v.
Webster, 115 Wn.2d 635, 640, 802 P .2d 1333 (1990).
When a petitioner makes a facial constitutional
challenge based on First Amendment grounds, the
“constitutional analysis is made upon the language of
the ordinance or statute itself.” Webster, 115 Wn.2d
at 640.
PRSM contends “the City’s vegetation provisions
constitute an overbroad and unnecessary restrain on
expressive conduct.” PRSM agrees that “much of this
argument could be decided as a matter of law because,
if a regulation burdens expression, then the
government bears the burden of showing that the
restriction is justified,” but, because “the City and
Ecology have indicated that they plan to challenge
whether gardening and landscape design constitute
expressive conduct-a mixed question of law and fact,”
additional evidence is necessary. PRSM sought to
supplement the record with testimony from Young
about “the personal choices that go into different
gardening styles or themes and to explain how those
decisions constitute expression.”
PRSM fails to explain how this supplemental
evidence meets the requirements of RCW

Appendix A-13
34.05.562(1)(c). PRSM contends that its First
Amendment claims are mixed questions of law and
fact, because no court has found that gardening is
protected expressive conduct under the First
Amendment. Young’s opinion on the expressive
nature of gardening, however, is in the administrative
record below. 2
Young, an attorney, sent the City and DOE a 99page legal analysis, which included a discussion of the
First Amendment. PRSM has not explained why this
evidence is insufficient for it to argue that gardening
is expressive in nature and protected conduct under
the First Amendment. PRSM contends that public
comments are insufficient to lay the groundwork of a
Young’s comment in the record states: “The First Amendment
right of free expression means not only do people have the right
to capture their personalities in their garden choices, but also a
government cannot mandate—as the Soviet Union did for years,
and the Bainbridge SMP is doing here—what kind of expression
is aesthetically pleasing . . . .

2

The SMP takes the private property owner’s right to engage
in what a majority of people would consider free expression.
Gardens can be an expression of peoples’ personalities, their
basic ‘essence.’ For many, gardening is a passion, a joy, a source
of fresh fruits and vegetables for the table, as well as a source of
an abundance of beautiful flowers for the house. Frequent trips
to the nursery are adventures - looking to see what new plants
they have. Countless hours are spent dreaming about how to
landscape and make one’s natural surroundings as beautiful as
possible: flowers and plants bring such emotional comfort and joy
to mankind! And, what constitutes a beautiful garden is, as they
say, in the eye of the beholder. Even if they are ‘non-indigenous,’
people in the Pacific Northwest love their Japanese maple trees,
their tulips and their rhododendrons (brought from China in the
19th century)! Now, with the SMP, these are all things of the
past.”

Appendix A-14
constitutional challenge, but fails to cite legal
authority supporting this contention.
The superior court did not abuse its discretion in
determining that PRSM’s proffered evidence was not
necessary to decide whether the SMP infringes First
Amendment rights.
2.
PRSM contends that the superior court abused its
discretion by refusing to allow PRSM to supplement
the administrative record with material facts
supporting its claim that the mandatory buffer is an
unconstitutional exaction.
In a recent opinion, the Washington Supreme
Court clarified that, for purposes of the Washington
State Constitution’s takings clause, Washington
jurisprudence follows the United States Supreme
Court definition of “regulatory takings” and any other
authority to the contrary is overruled. Yim v. City of
Seattle, No. 95813-1 (Wash. Nov. 14, 2019). There are
two per se categorical takings for Fifth Amendment
purposes: one, “where government requires an owner
to suffer a permanent physical invasion of her
property” and two, where regulations “completely
deprive an owner of ‘all economically beneficial uses’
of her property.” Yim, No. 95813-1, slip op. at 22. “If
an alleged regulatory taking does not fit into either
category, it must be considered on a case-by-case basis
in accordance with the Penn Central factors.” Yim,
No. 95813-1, slip op. at 22.
Both Nollan and Dolan were as-applied
challenges and cited Penn Central for their
underpinnings. Nollan v. Cal. Coastal Comm’n, 483
U.S 825, 852, n.6, 107 S. Ct. 3141, 97 L. Ed. 2d 677

Appendix A-15
(1987); Dolan v. City of Tigard, 512 U.S. 374, 403-04,
114 S. Ct. 2309, 129 L. Ed. 2d 304 (1994). The nature
of the Nollan/Dolan analysis is fact specific, and
therefore, must be evaluated on a case-by-case basis
and is not easily susceptible to a facial challenge.
The nexus rule from Nollan “permits only those
regulations that are necessary to mitigate a specific
adverse impact of a development proposal.” Kitsap
Alliance of Property Owners (KAPO) v. Central Puget
Sound Growth Mgmt. Hrgs. Bd., 160 Wn. App. 250,
272, 255 P.3d 696 (2011). The concept of rough
proportionality from Dolan “limits the extent of the
mitigation measures to those that are roughly
proportional to the impact they are designed to
mitigate.” KAPO, 160 Wn. App. at 272-73.
PRSM contends that the City failed to use the best
available science and therefore the mandatory buffer
is an unconstitutional exaction. PRSM cites Honesty
in Envtl. Analysis and Leg. (HEAL) v. Central Puget
Sound Growth Mgmt. Hrgs Bd., 96 Wn. App. 522, 527,
979 P.2d 864 (1999) for the proposition that critical
area buffers must satisfy the Nollan/Dolan tests. In
HEAL, the court held that “policies and regulations
adopted under [the Growth Management Act (GMA)]
must comply with the nexus and rough
proportionality limits the United States Supreme
Court has placed on government authority to impose
conditions on development applications.” HEAL, 96
Wn. App. at 527. If the best available science is not
used to support the agency’s decision to designate
critical area buffers, then “that decision will violate
either the nexus or rough proportionality rules or
both.” HEAL, 96 Wn. App. at 537, 979 P.2d 864 (1999).

Appendix A-16
Here, PRSM contends that the testimony of
Schaumburg, Phillips, and Robbins is necessary for
the court to “determine whether the SMP’s mandatory
buffers are, in fact, limited to only that land necessary
to mitigate for the impacts attributable to the
burdened property.”
PRSM fails to explain, however, why this
testimony is not in the administrative record, since it
contested the science before the Board. In its
prehearing brief before the Board, PRSM argued,
“The City is not in compliance with RCW 90.58.100(1)
and WAC 173-26-201 by failing to identify and
assemble the most current, accurate, and complete
scientific and technical information available, by
failing to consider the context, scope, magnitude,
significance, and potential limitations of the scientific
information, and by failing to make use of and
incorporate all available science.” In particular,
PRSM claimed, “the science was also based on the
impacts of use of upland property on freshwater
bodies, such as rivers and lakes, and not on the salt
water of the Puget Sound.” The Board found that
“Petitioners have failed to establish that the buffer
widths proposed for the Bainbridge SMP were based
on farm and feedlot data or were inappropriately
based on freshwater rather than marine data” and
that “they have not met their burden to establish a
failure ‘to assemble and appropriately consider
technical and scientific information’ in regard to
buffer widths.” PRSM has not explained why it needs
further testimony from Schaumburg, Phillips, and
Robbins to decide a disputed issue that it briefed
before the Board or how the testimony is different
from the exhibits in the administrative record.

Appendix A-17
The superior court did not abuse its discretion
when it determined that PRSM’s proffered evidence
was not necessary to decide whether the SMP is an
unconstitutional taking or exaction.
3.
PRSM contends that the superior court abused its
discretion by refusing to supplement the record to
support its claim that the SMP contains vague and
contradictory provisions rendering it indecipherable
to the average citizen.
“When a challenged ordinance does not involve
First Amendment interests, the ordinance is not
properly evaluated for facial vagueness.” Weden v.
San Juan County, 135 Wn.2d 678, 708, 958 P.2d 273
(1998) abrogated by Yim v. City of Seattle, No. 968179 (Wash. Nov. 14, 2019). In Maynard v. Cartwright,
486 U.S. 356, 361, 108 S. Ct. 1853, 100 L. Ed. 2d 372
(1988), the court held that “vagueness challenges to
statutes not threatening First Amendment interests
are examined in the light of the facts of the case at
hand; the statute is judged on an as-applied basis.”
Thus, PRSM’s facial constitutional vagueness
challenge is likely not ripe because PRSM is not
challenging the ordinance on an as-applied basis.
The superior court did not abuse its discretion
when it determined that PRSM’s proffered evidence
was not necessary to decide whether the SMP is
unconstitutionally vague.
We affirm.
s/ Mann, ACJ

Appendix A-18
WE CONCUR:
s/ Hazelrigg-Hernandez, J.
s/ Schindler, J.

Appendix B-1

Received for Filing
Kitsap County Clerk
OCT 13 2017
Allison H. Sonntag
SUPERIOR COURT OF THE STATE OF
WASHINGTON
IN AND FOR KITSAP COUNTY
PRESERVE
RESPONSIBLE
SHORELINE
MANAGEMENT, ET AL.
Petitioners and Plaintiffs,
vs.
CITY OF BAINBRIDGE
ISLAND, ET AL.

No. 15-2-00904-6
ORDER ON
PETITIONERS’
MOTION TO
AUTHORIZE
SUPPLEMENTATION
OF THE RECORD

Respondents and
Defendants.
THIS MATTER comes before the Court upon
Petitioners’ Motion to Authorize Supplementation of
the Record. In ruling on the Motion, the Court has
considered the following:
1.
Petitioners’
Motion
Supplementation of the Record;

to

Authorize

Appendix B-2
2. City of Bainbridge Island’s Brief in Opposition
to Petitioners’ Motion to Authorize Supplementation
of the Record;
3. Washington State Department of Ecology
Response to Petitioners Motion to Authorize
Supplementation of the Record;
4. Petitioners’ Reply in Support of Motion to
Authorize Supplementation of the Record;
5. The pleadings and filings in this matter; and
6. The oral arguments of the parties.
BACKGROUND
The parties largely agree on the procedural
background that placed this matter before the Court.
Pertinent to the Petitioner’s current Motion is the
following:
1. This Court dismissed Petitioners’ claims for
declaratory relief under the Uniform Declaratory
Judgments Act (“UDJA”) on October 5, 2016;
2. The Petitioners maintain their action seeking
judicial review of the determination of the Growth
Management Hearings Board (“the Board”) pursuant
to the Administrative Procedure Act (“APA”);
3. The parties have stipulated that Petitioners
may amend their initial Petition to move
constitutional claims into the surviving action;
The Board below was not empowered or
authorized to make determinations regarding
questions of constitutionality.

Appendix B-3
ISSUE
SHOULD THIS COURT AUTHORIZE
SUPPLEMENTATION OF THE RECORD
BELOW FOR PURPOSES OF DETERMINING
CONSTITUTIONAL ISSUES?
ANALYSIS
This Court acts in an appellate capacity with
respect to its review of the Board decisions below
regarding the City of Bainbridge island’s Shoreline
Mater Program (“SMP”) and its application to the
Petitioners. In this capacity, the Court’s review of the
Board’s decision is most always confined to the agency
record. Courts apply the standards of the
Administrative Procedure Act, chapter 34.05 RCW,
and look directly to the record before the board.
Kittitas Cty. v. E. Washington Growth Mgmt.
Hearings Bd., 172 Wn.2d 144, 155 256 P.3d 1193, 1198
(2011). The statutes, however, recognize the ability of
this Court to grant supplementation of the record.
RCW 34.05.558 states that “[J]udicial review of the
disputed issues of fact shall be conducted by the court
without a jury and must be confined to the agency
record for judicial review as defined by this chapter,
supplemented by additional evidence taken
pursuant to this chapter.” (emphasis added).
The parties recognize that any supplementation is
rare; new evidence is generally not taken by a
reviewing court. Respondent City of Bainbridge Island
(“City”) cautions that “[T]he APA clearly prohibits the
superior court from admitting new evidence unless
such evidence falls within the statutory exceptions

Appendix B-4
provided in RCW 34.05.562.” 1 That provision holds as
follows:
The court may receive evidence in addition
to that contained in the agency record for
judicial review, only if it relates to the
validity of the agency action at the time it
was taken and is needed to decide
disputed issues regarding:
(a) Improper constitution as a decisionmaking
body
or
grounds
for
disqualification of those taking the agency
action;
(b) Unlawfulness of procedure or of
decision-making process; or
(c) Material facts in rule making, brief
adjudications, or other proceedings not
required to be determined on the agency
record.
(emphasis added).
Petitioners propound that supplementation in the
way of oral testimony is necessary to this Court’s
understanding of its facial challenges to the
constitutionality of the SMP as enacted by the City of
Bainbridge Island. They proffer a number of
constitutional challenges, including a violation of
freedom of expression via the US Constitution’s First
Amendment, and a violation of the protection against
City of Bainbridge Island’s brief, 3: 9-10. See also, MotleyMotley, Inc. v. State, 127 Wn. App. 62 76 110 P.3d 812, 820
(2005); “Generally, however, new evidence is inadmissible. When
it is admissible, it is admissible because it falls squarely within
the statutory exceptions listed in RCW 34.05.562(1).”

1

Appendix B-5
warrantless searches under the US Constitution’s
Fourth
Amendment
and
Washington
State
Constitution Article 1, Section 7.
Petitioners place heavy reliance on what they
deem the “clear and recent” decisions in Olympic
Stewardship Foundation [OSF] v. State of
Washington
Environmental
Hearings
Office,
attaching a December 21, 2015 document to their
responsive pleading as Exhibit 1. Petitioners urge the
Court to note that the Court of Appeals, Division II,
granted a request to supplement the record on
constitutional issues somewhat akin to those now
before the Court. This “decision” (hereinafter referred
to as “OSF 2015”), however, is not a “decision” in the
context of appellate law. It is solely an interim ruling
on a litigated matter that actually came to fruition
two years later, in 2017. 2 While it has no precedential
value, it does delineate the status of the existing case
law, an analysis which should not be ignored by this
Court.
The
Court
of
Appeals
granted
supplementation, finding that such supplementation
was necessary to determine facts “going to the impact
the challenged legislative enactment has on
economically viable property uses and other potential
negative effects on property”. 3 The ultimate question,
then, is whether this Court requires supplementation
pertaining to the issues it expects to hear.
Petitioner has proffered a number of witnesses
and argues that supplementation would assist this
Court in understanding what appears to be a large
Olympic Stewardship Foundation v. State of Washington
Environmental and Land Use Hearings Office, 199 Wash.App.
668, 399 P.3d 562 (2017).
3 OSF 2015: 6.
2

Appendix B-6
record below. However, the number of pages to be
reviewed by this Court is irrelevant with respect to
the analysis of the issues in controversy. Respondents
oppose supplementation, arguing two things: (1) much
of the information the Petitioners seek to introduce
was, in fact, introduced before the Board below 4; and
(2) supplementation is unnecessary, as facial
challenges such as those proposed by the Petitioners
in this particular case go to questions of law, not of
fact. 5
This Court has yet to review the record below, but
notes that Petitioners did not take issue with
Respondents’ Assertions that the Board below heard
much of the proffered testimony. This Court, having
reviewed the Petitioner’s pleadings and the potential
witnesses to be presented, find that supplementary
testimony would is not “needed” in order to decide the
disputed issues in this case. Though Guimont 6
appeared to chastise the petitioners’ failure to
demonstrate that a regulation rendered property
useless in all respects, there is no discussion therein
as to supplementation of the record in any way. The
interim ruling in OSF 2015 does not set down a
requirement that this Court take supplemental
testimony to address the facial challenges propounded
by the Petitioners. This Court still retains the
discretion to determine whether the supplementation
proffered by Petitioners is needed to decide disputed
issues; it finds that it is not.
4 City of Bainbridge Island’s Brief, 7: 16-20, Ecology’s Response,
5: 6-11.
5 City of Bainbridge Island’s Brief, 6: 16, Ecology’s Response, 4:
17.
6 Guimont v. Clarke, 121 Wn.2d 586, 854 P.2d 1(1993).

Appendix B-7
Having considered the foregoing material, it is
hereby ORDERED, ADJUDGED AND DECREED
that:
Petitioners’ Motion requesting to supplement the
record in this matter is DENIED.
DATED this 12th day of October 2017.
s/ Jeffrey P. Bassett
JUDGE JEFFREY P. BASSETT

Appendix C-1
Filed
Supreme Court
State of Washington
7/8/2020
By Susan L. Carlson
Clerk
THE SUPREME COURT OF WASHINGTON
PRESERVE RESPONSIBLE
SHORELINE
MANAGEMENT, et al.
Petitioners,
v.
CITY OF BAINBRIDGE
ISLAND, et al.

No. 98365-8
ORDER
Court of Appeals
No. 80092-2-I

Respondents.

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, González, Yu,
and Whitener, considered at its July 7, 2020, Motion
Calendar whether review should be granted pursuant
to RAP 13.4(b) and unanimously agreed that the
following order be entered.
IT IS ORDERED:
That the petition for review is denied. The
Respondent’s motion to strike the reply to the answer
to the petition for review is granted.

Appendix C-2
DATED at Olympia, Washington, this 8th day of
July, 2020.
For the Court
s/ Debra Stephens, C.J.
CHIEF JUSTICE

Appendix D-1
RECEIVED AND
FILED
IN OPEN COURT
SEP 29 2017
KITSAP COUNTY
CLERK
ALISON H. SONNTAG
BEFORE THE SUPERIOR COURT FOR THE
COUNTY OF KITSAP
STATE OF WASHINGTON
PRESERVE RESPONSIBLE
SHORELINE
MANAGEMENT, Alice
Tawresey, Robert Day,
Bainbridge Shoreline
Homeowners, Dick Haugan,
Linda Young, Don Flora,
John Rosling, Bainbridge
Defense Fund, Gary Tripp,
and Point Monroe Lagoon
Home Owners Association,
Inc.,
Petitioners, and
Kitsap County Association of
Realtors®,
Intervenor Below
vs.

No. 15-2-00904-6

AMENDED
PETITION FOR
JUDICIAL
REVIEW

Appendix D-2
CITY OF BAINBRIDGE
ISLAND, Washington State
Department of Ecology,
Environmental Land Use
Hearing Office and Growth
Management Hearings Board
Central Puget Sound Region
Respondents and
Defendants.
Petitioners and Plaintiffs allege as follows:
INTRODUCTION
This case challenges the City of Bainbridge
Island’s revised Shoreline Management Program
(SMP), adopted under the Shoreline Management Act
(SMA). The SMP contains numerous violations of the
SMA, as well as violates the constitutional rights of
citizens to due process, equal protection of the law,
and the protection against the taking of property
without prior payment of just compensation. Because
the Growth Management Hearings Board (Board)
found no violations of the SMA, this action seeks
judicial review of the Board’s decision and a
declaration that the City, and the Department of
Ecology (Ecology) in approving the City’s action, have
violated the constitution as more fully set forth below.
*****
15. In addition, the Board's decision is unlawful in
that it approved the City’s SMP which is
unconstitutional as articulated below:

Appendix D-3
16. The SMP violates Plaintiffs’ and their
members rights to substantive due process as being
arbitrary, capricious or unduly oppressive in at least
the following respects:
a. Requiring City approval for any human
activity in the shoreline area.
b. Requiring vegetation replanting for any
alteration of native vegetation within the
shoreline jurisdiction or any vegetation within the
shoreline buffer.
c. Requiring a clearing permit for any change
in vegetation.
d. Giving the City control over landscaping
decisions on private property, including:
i. Choice of species;
ii. Choice of plant location; and
iii. Choice of when and how to prune,
maintain or remove;
e. Regulating all use of the property without
regard to development.
f. Using private property for public purposes.
17. Plaintiffs contend that the SMP violates due
process because it is void for vagueness in the
following particulars:
a. The SMP gives the shoreline administrator
unlimited discretion regarding docks and piers.
b. The City’s approval requirements are
triggered by “activity” which is defined as
“human activity associated with the use of land
or resources.” SMP at p. 224.

Appendix D-4
c. SMP 4.1.2.4(2)(a) gives the administrator
power to condition uses and activities “even if no
permit is required.”
d. When nonconforming uses are allowed to
be re-established, the re-established use must be
“restricted.” SMP 4.2.1.5.2. Nothing explains the
nature or extent of such restrictions that might
apply.
g. SMP 4.1.3.5.1 prohibits disturbance of
vegetation, the extent to which is completely
unclear.
f. SMP 4.1.3.6 establishes the shoreline
buffer. The exact buffer to be placed on any
property is subject to vague standards to be
applied by the Shoreline Administrator. SMP
4.1.3.6.3.
g. The City’s Shoreline Administrator may
require retention of “significant trees” SMP
4.1.3.1(6).
h. The SMP is vague in referring either to
other sections of the SMP or city codes which do
not exist.
i. The Shoreline Administrator is authorized
to allow exceptions to planting of native
vegetation, but only if he or she is convinced it
will serve the same ecological function as native
plants. SMP 4.1.3.1 (5).
j. The buffers within critical areas may
increase 50 % for wildlife habitat.
18. The SMP subjects Plaintiffs and their
members to unconstitutional conditions. For instance,
any changes or disturbance of any native vegetation

Appendix D-5
on site or any vegetation in the shoreline buffer
require the dedication of a perpetual conservation
easement subject to the City’s vegetation and
revegetation retention standards and perpetual
dedication of labor and services (requirement to
nurture and maintain plants). Property owners are
required to pay to replace any vegetation that may not
survive for any reason. Property owners are required
to give an easement to government agents for a
minimum of 5 years to enter upon property assure
that city-dictated plants are properly nurtured and
maintained.
19. Conditions are imposed without any sense of
proportionality or causal connection between damage
and human activity. For instance, if the shoreline
buffer is altered, the property owner must guarantee
a 65% canopy within 10 years regardless of the extent
of the buffer alteration. Similarly, re-vegetation
requirements apply regardless of whether there is any
development activity.
20. When mitigation is required for shoreline
stabilization due to site disturbance, a specific
planting plan is required regardless of the extent of
the site disturbance.
21. If one is rebuilding a house, the City requires
a restriction placed on title promising no bulkhead for
“life of the development.” SMP 4.2.1.6.1.3(b). If
building a new house, the City conditions the permit
with a prohibition on a bulkhead for 100 years. SMP
6.1.5.4. Similarly, a condition on subdivisions requires
no bulkhead for 100 years. SMP 5.9.8.1.
22. Plaintiffs and their members are subject to a
taking or damaging of property interests without

Appendix D-6
prior payment of just compensation as required by
Article I, Section 16 of the Washington Constitution
and without payment of just compensation under the
Fifth Amendment to the United States Constitution.
23. For instance, the denial of the right to build a
dock constitutes a denial of access to water for
navigation purposes, which is property right.
24. The SMP prohibits landowners from
protecting land from erosion, unless a house is in
danger and prohibits protecting land without a house
or primary structure. SMP 6.2.4.4 and 6.2.8.1.
25. The SMP takes property by mandating that
property owners leave downed vegetation for wildlife
and create conservation easements for the benefit of
the City.
26. Plaintiffs and their members are subjected to
unequal protection of the law. For instance, a
nonconforming use may be resumed only if it was in a
nonconforming structure that was destroyed by
accident. There is no rational basis for prohibiting a
nonconforming use to be resumed if was in a
conforming structure.
27. The SMP's regulation of the types of plants
that can be planted in one's garden interferes with the
homeowners' freedom of expression. A homeowner or
gardener should be allowed the full range of choices
for the style of personal yards, homes and gardens.
The City should not be able to interfere with such
expression without a compelling reason. This feature
of the SMP also violates Article I, Section 7 of the
Washington Constitution.

Appendix D-7
28. SMP 7.2.1 purports to authorize site
inspection without a warrant. Administrative
inspections are not permissible without a warrant.
29. Plaintiffs are entitled to a declaration of rights
and obligations under the statutes and constitutional
provisions because the City’s and DOE’s actions have
and will continue to result in substantial and actual
injury to Plaintiffs.
30. A ruling by this Court will terminate the
controversies between Plaintiffs, the City, and
Ecology.
RELIEF REQUESTED
Wherefore, Petitioners and Plaintiffs now
respectfully request the Court to award the following
relief:
A. An order reversing the Board’s decisions;
B. An order declaring the rights and
responsibilities of Plaintiffs and Defendants with
regard to the SMP;
C. An order declaring provisions of the SMP to
be unconstitutional as previously alleged;
D. An award of costs in this action; and
E. Such other and further relief as the Court
deems just and equitable.
RESPECTFULLY submitted this 22nd day of
September, 2017.
STEPHENS & KLINGE LLP
By: s/ Richard M. Stephens
Richard M. Stephens, WSBA #21776
Attorneys for Petitioners

